CAPITAL CASE
No. _______

IN THE

Supreme Court of the United States
LEROY D. CROPPER,
Applicant,
V.

STATE OF ARIZONA,
Respondent.
APPLICATION DIRECTED TO THE HONORABLE ELENA KAGAN
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
SUPERIOR COURT OF ARIZONA, MARICOPA COUNTY

CERTIFICATE OF SERVICE
I, Michael J. Meehan, a member of the Bar of this Court and counsel of record
for Applicant, hereby certify that on December 31, 2019, I caused copies of this
Application Directed to the Honorable Elena Kagan for an Extension of Time Within
Which to File a Petition for a Writ of Certiorari to the Superior Court of Arizona,
Maricopa County in the above-captioned case to be mailed, first-class postage
prepaid, to:

Laura P. Chiasson
Assistant Attorney General
Capital Litigation Section
400 West Congress Street, S-315
Tucson, AZ 85701
(520) 628-6520

Laura.Chiasson@azag.gov
cadocket@azag.gov

Counsel for Respondent
Additionally, in accordance with Supreme Court R~e 29.3, an electronic
version of the Application Directed to the Honorable Elena Kagan for an Extension
of Time Within Which to File a Petition for a Writ of Certiorari to the Superior Court
of Arizona, Maricopa County was transmitted to the above-listed counsel at the
referenced email addresses.
I further certify that all parties required to be served have been served.

By&!!~ f>bt~
Michael J. Meehan
Counsel for Applicant

2

